      Department of Homeland Security




       FEMA’s Efforts To Recoup Improper Payments in
    Accordance with the Disaster Assistance Recoupment
                   Fairness Act of 2011 (3)




OIG-12-127                                    September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                Washington, DC 205281 www.oig.dhs.goY



                                 September 21, 2012


MEMORANDUM FOR:              William L. Carwile, III
                             Associate Administrator, Response and Recovery
                             Federal Emerge~-na~~ent AGf.~Y

FROM:                        D. Michael Beard
                                                    !Ji/,~-
                                                       _
                                                          M"X£:
                                                             pt-_---
                             Assistant Inspe  r General
                             Office of Emergency Management Oversight

SUBJECT:                     FEMA's Efforts To Recoup Improper Payments in
                             Accordance With the Disaster Assistance Recoupment
                             Fairness Act af 2011 (3)

Attached for your information is ourfinalletter report, FEMA's Efforts To Recoup
Improper Payments in Accordance With the Disaster Assistance Recoupment Fairness
Act of 2011 (3). As required by the subject legislation, we are reporting on the C05t-
effectiveness of FEMA's efforts to recoup improper payments. This is the third in a
series of six reports that will be issued every 3 months through June 2013. We are not
making any recommendations in this report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Kaye McTighe, Director; Adrian Dupree, Audit
Manager; Stuart Josephs, Auditor; and Aaron Naas, Program Analyst.

Please call me with any questions, or your staff may contact John Kelly, Acting Deputy
Assistant Inspector General, Office of Emergency Management Oversight, at
(202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   The Disaster Assistance Recoupment Fairness Act of 2011 (DARFA; Section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74) provides a limited-time,
   discretionary authority for the Administrator of the Federal Emergency Management
   Agency (FEMA) to waive debts arising from improper payments provided for disasters
   declared between August 28, 2005, and December 31, 2010. DARFA directs the
   Department of Homeland Security (DHS) Inspector General to report on the cost-
   effectiveness of FEMA’s efforts to recoup improper payments. This is the third in a
   series of six reports that will be issued every 3 months through June 2013.

   Following Hurricanes Katrina and Rita in 2005, and other disasters up to December 31,
   2010, FEMA disbursed more than $8 billion in assistance payments, some of which were
   later determined to have been improperly paid to individuals who were ineligible or
   who received duplicate payments. The debts in question arose in part because FEMA
   relaxed its internal controls in order to provide expedited delivery of assistance grants
   to displaced disaster survivors. The relaxed internal controls involved potential
   payments of $621.6 million to 167,488 recipients. After reviewing all of the cases, FEMA
   reduced that original estimate and determined that 91,178 recipients, who received
   more than $371 million, were candidates for recoupment. According to FEMA, there is
   sufficient justification not to recoup payment from the other 76,310 recipients, who
   collectively received more than $250 million in disaster assistance.

   The first report (OIG 12-62, March 2012) of this series presented in-depth background
   information, which is encapsulated in appendix B of this report.

   Overview
   As discussed with the Senate’s Committees on Homeland Security and Governmental
   Affairs and Appropriations, and the House Committees on Homeland Security,
   Transportation and Infrastructure, and Appropriations, the Office of Inspector General’s
   (OIG) reporting pursuant to DARFA (§ 565(b)(4)) will follow the ground rules below.

           1. For the purposes of OIG reporting, FEMA efforts are defined as undertakings
           such as (i) notifying potential debtors; (ii) adjudicating and reviewing responses;
           (iii) evaluating support provided; (iv) making arrangements to collect, waive,
           partially waive, terminate debt, and refer matters to the U.S. Department of the
           Treasury; (v) implementing quality control measures; and (vi) training staff to
           perform the above tasks.



www.oig.dhs.gov                                 2                                       OIG-12-127
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           2. The timeframe for the above FEMA efforts will be 15 days prior to the
           legislatively mandated deadline for each of the six serial OIG reports (e.g., the
           next OIG report, which is due on December 23, 2012, will cover our assessment
           activities up until December 8, 2012).

           3. Costs incurred by FEMA will include equipment and contractual expenses,
           salaries of assigned temporary and permanent staff, and refunds to those who
           were originally required to repay their disaster assistance benefits but were later
           deemed eligible for a waiver.

   Review Results to Date
   FEMA provided OIG with information regarding its DARFA waiver actions and estimated
   costs since December 2011. As of September 7, 2012, FEMA adjudicated 18,283 cases
   totaling $101,113,733 that were initially identified for recoupment. Of that amount,
   FEMA has granted waivers for applicants in approximately 93 percent of the cases it has
   reviewed. Specifically, FEMA has granted 16,990 waivers and denied 1,293 waivers
   totaling $94,862,566 and $6,251,167, respectively. FEMA has recouped from denied
   waivers $1,312,956. Additionally, FEMA has expended an estimated $7,287,666 on
   related activities. This includes planning and implementing provisions of the process,
   training employees, and conducting waiver activities.

   FEMA determines whether applicant cases should be waived based on its interpretation
   of DARFA requirements. In February 2012, FEMA sent Notices of Waiver letters to
   disaster survivors that were deemed potentially eligible for a waiver based on DARFA
   legislation. Notices of Waivers were not sent to disaster survivors that are deceased,
   under court ordered restitution, convicted of fraud, or successfully appealed. Disaster
   survivors notified FEMA in writing if they wanted to apply for waiver of their debt.
   FEMA reviews the DARFA cases at their facility in Winchester, Virginia, where we
   conducted fieldwork to observe the process and review a sample of cases.

   FEMA adjudicators review each submission package, including applicant’s statements
   regarding their individual circumstances, inability to repay the debt, statement of loss,
   as well as items replaced and funds expended. Applicants’ are not required to provide
   copies of their federal tax returns. Rather they certify as to their adjusted gross
   household income. Based on an analysis of each applicant’s circumstances, FEMA
   adjudicators, using the criteria set forth in FEMA’s Management Directive: Waiving
   Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of 2011, prepare a
   summary worksheet recommending approval or denial of a waiver and forward that
   recommendation to a team leader for review. The Management Directive also states




www.oig.dhs.gov                                 3                                      OIG-12-127
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   that FEMA will construe this policy liberally in favor of the debtor, except for duplication
   of benefit requirements where FEMA has provided specific written notice to the debtor.

   In cases where it is determined that it may be against equity and good conscience to
   have the applicant repay the debt, FEMA reviewers evaluate if less than 36 months has
   elapsed since the time FEMA awarded the assistance and the date the final notification
   letter for debt was sent to the debtor, what financial hardship would result from
   collection, whether survivors spent the funds for disaster-related purposes and are
   unable to reclaim the funds, or whether other personal circumstances exist that would
   make collection unduly burdensome or grossly unfair. If there is not enough
   information provided to FEMA within the letter submitted for their waiver request,
   FEMA, based on the circumstances of an individual’s cases, may request additional
   documentation, which could include repair costs and receipts for needed material.

   When completed, the team leader forwards the worksheets to their director for
   concurrence. Due to the volume of waiver requests, the director does not conduct in-
   depth case reviews; however, if the director has questions about a particular case, a
   meeting will be held with the case’s adjudicators. Subsequent to the above review, the
   Waiver Review Governance Group conducts a quality assurance assessment by
   reviewing 30 percent of DARFA applicant cases that were not waived. Additionally,
   there is weekly ongoing dialogue with the Waiver Review Governance Group discussing
   eligibility standards.

   We are in the process of reviewing a sample of adjudicated DARFA cases and will
   provide the results of our review in a future report.

   Table 1 summarizes FEMA’s decisions on the 18,283 adjudicated disaster assistance
   recipients requesting a debt waiver under the DARFA provisions. A debtor may have
   qualified for a waiver in more than one category which is reflected in the chart by
   occurrence. Under the current DARFA process, FEMA may grant either a full or partial
   waiver based on applicants meeting five basic eligibility requirements. This includes
   applicants receiving payments based on FEMA error. According to FEMA’s Management
   Directive: Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of
   2011, FEMA error may have resulted from manual processing errors, failure of FEMA
   personnel to include information in the system, failure of personnel to verify disaster-
   related loss or need prior to authorizing payment, or adoption of a new policy in the
   midst of a disaster.




www.oig.dhs.gov                                 4                                       OIG-12-127
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Table 1. FEMA Granting or Denying DARFA Waivers 

                                                            Waivers                         Waivers
      Reasons for Debt Recoupment         Occurrences                   Occurrences
                                                            Granted                         Denied
    Duplication of Benefits With                 6,697      $50,448,050         205        $1,293,957
    Household Member
    Duplication of Benefits With                 1,465         7,577,832            436     2,923,873
    Insurance
    Another Member of Household                    708         5,846,500             21       145,098
    Received Insurance
    Housing Assistance Overpayment               2,878         6,632,655            139       332,308
    Home Repair/Rental Assistance
    Occupancy Not Verified                       3,487        7,835,915             212       572,883
    Not Primary Residence (Students)               889        2,656,854              66       200,297
    Not Primary Residence                          637        3,315,238              32       153,800
    Other                                        3,510       10,549,522             221       628,951
    Total                                       20,271      $94,862,566           1,332    $6,251,167
   Source: FEMA.

   FEMA provides disaster survivors at the time of applying for assistance eligibility rules
   for receiving assistance. Applicants are required to sign a Declaration and Release form
   (See appendix C). Applicants must certify that they are the only individual submitting an
   application for the type of disaster assistance requested in their household and that
   disaster aid money will be returned to FEMA if they receive insurance or other money
   for the same loss. Listed below are some examples of applicants who FEMA deemed
   eligible for waivers and their reasons why FEMA requested recoupment prior to DARFA.

           •	 Duplication of Benefit with Household Member: The applicant registered online as
              an uninsured renter on September 6, 2005 and received $14,750 from FEMA for
              personal property loss, rental assistance, and expedited housing assistance. The
              next day, his spouse registered, cited the same address, and received $21,387 in
              disaster assistance for flood damages. An OIG review of FEMA’s database revealed
              that a third individual at the same address received $18,330. In this instance, the
              three individuals received a total of $54,466. According to FEMA, registrations from
              the same damaged address were not reviewed for duplication.

                  FEMA’s records show that both the original applicant and spouse were sheltered
                  inside the Lafayette Cajundome at the time of their applications, but claimed they
                  were unaware of the other’s application. According to FEMA, the improper
                  payments occurred because controls had been lowered to expedite assistance to
                  separated households and payments were duplicated. FEMA fully waived the
                  improper payment amount of the first applicant, citing that the erroneous payment
                  occurred because of FEMA error.




www.oig.dhs.gov                                     5	                                        OIG-12-127
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
           •	 Duplication of Benefit with Household Member: The applicant registered on
              September 10, 2005 as an uninsured renter, and received assistance totaling
              $17,302, for rental assistance, personal property loss, dental assistance, and
              expedited housing assistance. An OIG review of FEMA’s database revealed that two
              other individuals received disaster assistance totaling $48,923 at that same
              damaged address. According to FEMA, controls were relaxed which prevented the
              system from recognizing the damaged address as a duplicate with another
              applicant.

                  FEMA notified the original applicant that $10,391 of the total amount, awarded for
                  personal property damage, was an improper payment, for which the debtor
                  subsequently requested a waiver. FEMA‘s records show that the improper
                  property damage payment occurred because a non-traditional, geospatial
                  inspection was used following Hurricane Katrina. In the waiver review, FEMA stated
                  that no contradictory information was on file to show debtor fault, cited FEMA
                  error, and thus waived the improper payment of $10,391.

           •	 Duplication of Benefit: Although the applicant received a total of $6,358 following
              Hurricane Katrina, at issue in this case is the duplicate $2,000 payments he was
              awarded when FEMA relaxed controls to expedite assistance by issuing debit cards.
              When notified of the overpayment, the applicant acknowledged that he received
              two separate $2,000 payments, and returned that amount to FEMA. FEMA again
              distributed $2,000 to the applicant. The applicant claimed that he did not know it
              was an overpayment until FEMA notified him of his debt approximately two years
              later.

                  FEMA considered the overpayment the agency’s error and that the applicant did not
                  have the programmatic knowledge to realize it was an improper payment. FEMA
                  waived the improper payment of $2,000 based on interpretation of FEMA’s DARFA
                  guidance.

           •	 Duplication of Benefit with Insurance: The applicant applied online as an owner
              with homeowners insurance on September 13, 2005, and was awarded more than
              $27,000 for personal property loss, replacement housing, expedited disaster
              assistance, and rental assistance. The previous day, his sister applied as an owner
              with homeowners and flood insurance and received $4,358. At issue in this case is
              $21,242 that the brother received for personal property and replacement housing
              which was covered by insurance.

                  FEMA waived the improper payments of $21,242, citing no fault on the debtor’s
                  part, and due to error by FEMA, which had lowered its internal controls following
                  Hurricane Katrina.




www.oig.dhs.gov                                      6	                                        OIG-12-127
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
           •	 Ownership Not Verified: Following Hurricane Ike on September 17, 2008, the
              applicant registered as an uninsured property owner when, in fact, she did not own
              the residence. The record shows that the FEMA housing inspector at the time
              incorrectly identified the applicant as the residence’s owner. The applicant was
              improperly paid $12,021 for home repair, in addition to rental assistance and other
              needs assistance for an additional $5,019. At issue here is the $12,021 the applicant
              received for damage to a property she did not own.

                  FEMA waived improper payments of $12,021, citing there is no debtor fault. The
                  waiver case file concluded that the improper payment occurred due to FEMA error
                  on the part of the home inspector who did not discover that the applicant was not
                  the true owner.

   Table 2 lists the costs that FEMA has incurred implementing the provisions of DARFA.
   Costs include planning and implementing provisions of the process, training staff, and
   conducting waiver activities. According to FEMA, no additional staff has been hired.
   Since May 14, 2012, FEMA required mandatory overtime for the DARFA Waiver Review
   Group. These costs are included with the overall FEMA staff costs in the table below.
   According to FEMA, a majority of FEMA’s adjudicators at the Virginia NPSC have
   received training to answer DARFA waiver applicant questions.

                                 Table 2. DARFA Total Estimated Costs
                                     Category                Cost
                                    FEMA Staff                 $4,665,814
                                    Contracting                   110,146
                                     Applicant                  2,511,706
                                     Refunds
                                   Overall Total              $7,287,666
                                 Source: FEMA.

   It is too early to determine the cost-effectiveness of the process because waiver
   requests and reimbursements are still ongoing. These issues will be addressed in future
   reports as information becomes available.




www.oig.dhs.gov                                     7	                                       OIG-12-127
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The objective of this review was to provide an interim report on the cost-effectiveness
   of FEMA’s efforts to recoup improper payments in accordance with DARFA. To
   accomplish our objective, we reviewed and analyzed FEMA’s Management Directive:
   Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of 2011;
   Federal laws, regulations, and testimony; prior OIG reports relevant to our review; and
   other applicable documents.

   We interviewed FEMA headquarters officials and National Processing Service Center
   employees in order to determine their waiver and recoupment process for adhering to
   DARFA. We conducted these interviews at FEMA locations in Washington, DC, and
   Winchester, VA.

   We conducted this review between June and September 2012 under the authority of
   the Inspector General Act of 1978, as amended, and according to the Quality Standards
   for Inspections issued by the Council of the Inspectors General on Integrity and
   Efficiency.

   We appreciate the efforts by FEMA management and staff to provide the information
   and access necessary to accomplish this review.




www.oig.dhs.gov                               8                                      OIG-12-127
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix B
   In-Depth Background
   For disasters declared between August 28, 2005 and December 31, 2010, FEMA
   disbursed more than $8 billion in assistance payments, some of which were later
   determined to have been improperly paid to individuals who were ineligible or who
   received duplicate payments. In 2006, FEMA began recoupment efforts in an attempt
   to recover the misspent public funds. In 2007, a group of Hurricane Katrina disaster
   assistance applicants facing recoupment filed a class action lawsuit against FEMA,
   alleging that it did not provide sufficient procedural due process. The plaintiffs
   successfully petitioned the court to issue an injunction enjoining FEMA from continuing
   its recoupment activities. In 2008, in light of the injunction and revised DHS debt
   collection regulations, FEMA terminated its recoupment process. As a result, FEMA
   withdrew recoupment notifications it sent to survivors of Hurricanes Katrina and Rita
   and later disasters, and proceeded to reexamine files for evidence of overpayment.
   FEMA also began to redesign its recoupment and debt collection procedures to conform
   to agency regulations.

   In 2011, FEMA commenced the revised recoupment process for the collection of
   overpayments. From March through December 2011, FEMA mailed nearly 90,000
   notices of debt and considered thousands of appeals and requests for payment plans
   and compromise.

   Some members of Congress were concerned about the fairness of FEMA collecting
   overpayments that had been the result of FEMA error and when a significant amount of
   time had elapsed before FEMA provided actual notice to the debtors. As a result of
   these concerns, Congress passed, and the President signed, DARFA (section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74).

   DARFA authorizes the Administrator of FEMA to waive a debt arising from improper
   payments provided for disasters declared between August 28, 2005, and December 31,
   2010, if the excessive payment was based on FEMA error; there was no fault by the
   debtor; collection of the debt is against equity and good conscience; and the debt does
   not involve fraud, a false claim, or misrepresentation by the debtor or others with an
   interest in the claim. FEMA is authorized to grant a waiver to eligible debtors with a
   2010 adjusted gross income (AGI) less than or equal to $90,000; and, subject to certain
   conditions, only a partial waiver to those with an AGI greater than $90,000.




www.oig.dhs.gov                               9                                      OIG-12-127
                    OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix C
   FEMA Declaration and Release Form




www.oig.dhs.gov                   10                    OIG-12-127
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief Counsel
   Chief of Staff
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                                 11                  OIG-12-127
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Congress

   United States Senate
   Committee on Homeland Security and Governmental Affairs
   Committee on Appropriations, Subcommittee on Homeland Security

   U.S. House of Representatives
   Committee on Homeland Security
   Committee on Transportation
   Committee on Appropriations, Subcommittee on Homeland Security




www.oig.dhs.gov                           12                        OIG-12-127
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
